No. 19-309

IN THE

Supreme Court of the United States

d

JOHN C. CARNEY, GOVERNOR

OF

DELAWARE ,
Petitioner,

—v.—

JAMES R. ADAMS ,
Respondent.
ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE THIRD CIRCUIT

BRIEF FOR AMICI CURIAE PROFESSORS
IN SUPPORT OF PETITIONER

RODNEY A. SMOLLA
Counsel of Record
4601 Concord Pike
Wilmington, Delaware 19803
(302) 477-2278
rasmolla@widener.edu
Attorney for Amici Curiae

i
TABLE OF CONTENTS

PAGE

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . .

iii

INTEREST OF AMICI . . . . . . . . . . . . . . . . . . . . . .

1

SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

3

I. THE THIRD CIRCUIT FUNDAMENTALLY
MISCONCEIVED THE ELROD-BRANTI
ANTI-PATRONAGE DOCTRINE . . . . . . . . .

3

A. Elrod-Branti is an “On-Off” Test, Not
a “Least Restrictive Means” Doctrine . . .

3

B. Applying the Elrod-Branti Exemption
to Judicial Selection . . . . . . . . . . . . . . . . . . .

6

C. Judges Make Policy in a Manner Distinct
from the Legislative and Executive
Branches, But Judges Make Policy as
the First Amendment Knows Policy
for Purposes of the Elrod-Branti
Exemption. . . . . . . . . . . . . . . . . . . . . . . . . . . .

7

D. No Fidelity to Superiors is Required
Under the Elrod-Branti Exemption . . . . .

13

E. Once the Propriety of the Exemption is
Recognized, “Discrimination” Against
an Excluded Party Cannot Violate the
First Amendment . . . . . . . . . . . . . . . . . . . . .

16

F. Delaware Has Decided that the Spoils
Do Not Belong to the Victor . . . . . . . . . . . .

18

ii
PAGE

II. THE THIRD CIRCUIT’S DECISION
UNDERMINES THE SOVEREIGNTY
OF STATES IN MATTERS OF JUDICIAL
SELECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . .

19

A. Judicial Selection Regimes Resides at
the Core of State Sovereignty . . . . . . . . . .

19

B. Delaware is Entitled to Act as a Laboratory
for Democratic Experiment . . . . . . . . . . . .

21

C. The Delaware Experiment Has Been
a Triumphant Success . . . . . . . . . . . . . . . . .

23

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

26

APPENDIX (List of Amici Curiae) . . . . . . . . . . .

1a

iii
TABLE OF AUTHORITIES

PAGE(S)

Cases
Branti v. Finkel,
445 U.S. 507 (1980) . . . . . . . . . . . . . . . . . . . . . passim
Elrod v. Burns,
427 U.S. 347 (1976) . . . . . . . . . . . . . . . . . . . . . passim
Erie Railroad Co. v. Tompkins,
304 U.S. 64 (1938). . . . . . . . . . . . . . . . . . . . . . . .

10

Gregory v. Ashcroft,
501 U.S. 452 (1991) . . . . . . . . . . . . . . . . . . . . . passim
Hagan v. Quinn,
867 F.3d 816 (7th Cir. 2017) . . . . . . . . . . . . . .

9

Highland Farms Dairy v. Agnew,
300 U.S. 608 (1937) . . . . . . . . . . . . . . . . . . . . . .

20

Kiddy-Brown v. Blagojevich,
408 F.3d 346 (7th Cir. 2005) . . . . . . . . . . . . . .

9

Kurowski v. Krajewski,
848 F.2d 767 (7th Cir. 1988) . . . . . . . . . . . . 9, 10, 14
Laird v. Tatum,
409 U.S. 824 (1972) . . . . . . . . . . . . . . . . . . . . . .

12

Marbury v. Madison,
5 U.S. (1 Cranch) 137 (1803) . . . . . . . . . . . . . .

6

New State Ice Co. v. Liebmann,
285 U.S. 262 (1932) . . . . . . . . . . . . . . . . . . . . . .

21

Newman v. Voinovich,
986 F.2d 159 (6th Cir. 1993) . . . . . . . . . . . . . . 10, 15

iv
PAGE(S)

Reed v. Town of Gilbert,
135 S. Ct. 2218 (2015) . . . . . . . . . . . . . . . . . . . .

4

Republican Party of Minnesota v. White,
536 U.S. 765 (2002) . . . . . . . . . . . . . . . . . . . . . .

12

Rutan v. Republican Party of Illinois,
497 U.S. 62 (1990). . . . . . . . . . . . . . . . . . . . . . . .

4, 23

Sierra Club v. Morton,
405 U.S. 727 (1972) . . . . . . . . . . . . . . . . . . . . . .

8

Storer v. Brown,
415 U.S. 724 (1974) . . . . . . . . . . . . . . . . . . . . . .

23

Sugarman v. Dougall,
413 U.S. 634 (1973) . . . . . . . . . . . . . . . . . . . . . .

20

Texas v. White,
7 Wall. 700, 19 L.Ed. 227 (1869) . . . . . . . . . . .

19

Trustees of Dartmouth College v. Woodward,
17 U.S. 518 (1819). . . . . . . . . . . . . . . . . . . . . . . .

26

Williams-Yulee v. Florida Bar,
135 S. Ct. 1656 (2015) . . . . . . . . . . . . . . . . . . . .

14

Wilson v. North Carolina,
169 U.S. 586 (1898) . . . . . . . . . . . . . . . . . . . . . .

20

Statutes
29 U.S.C. §§ 621–634 (Age Discrimination in
Employment Act of 1967, 81 Stat. 602
“ADEA”) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

8

v
PAGE(S)

Constitutional Provisions
First Amendment . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Tenth Amendment . . . . . . . . . . . . . . . . . . . . . . . . . .

2, 20

United States Constitution Guarantee Clause,
Article IV, § 4 . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2, 20

Other Authorities
Bainbridge, Stephen M., “Interest Group Analysis
of Delaware Law: The Corporate Opportunity
Doctrine as Case Study,” in Can Delaware be
Dethroned? Evaluating Delaware’s Dominance
of Corporate Law 120 (Cambridge University
Press 2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
22
Barnes, Robert, Rebuking Trump’s criticism of
‘Obama judge,’ Chief Justice Roberts defends
judiciary as ‘independent’, The Washington
Post, November 21, 2018, available at
https://www.washingtonpost.com/politics/
rebuking-trumps-criticism-of-obama-judgechief-justice-roberts-defends-judiciary-asindependent/2018/11/21/6383c7b2-edb711e8-96d4-0d23f2aaad09_story.html?
noredirect=on . . . . . . . . . . . . . . . . . . . . . . . . . . . .

15

Black, Bernard S., Is Corporate Law Trivial?:
A Political and Economic Analysis,
84 Nw. U. L. Rev. 542, 589 (1990) . . . . . . . . .

24

Cardozo, Benjamin N., The Nature of the
Judicial Process (1921) . . . . . . . . . . . . . . . . . . .

13

de Tocqueville, Alexis, 1 Democracy in America
280 (1945 ed.) . . . . . . . . . . . . . . . . . . . . . . . . . . . .

8

vi
PAGE(S)

Epstein, Lee & Segal, Jeffrey A., Advice
and Consent: The Politics of Judicial
Appointments 3 (2005) . . . . . . . . . . . . . . . . . . . .

17

Fisch, Jill E., The Peculiar Role of the Delaware
Courts in the Competition for Corporate
Charters, 68 U. Cin. L. Rev. 1061, 1064
(2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 12, 24, 25
Fried, Charles, Federalism—Why Should We
Care?, 6 Harv. J.L. & Pub. Policy 1, 2
(1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

19

Glick, Henry Robert, Policy-Making and
State Supreme Courts: The Judiciary as
an Interest Group, 5 Law & Society Review
271 (1970) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

11

Hamermesh, Lawrence A., How We Make Law
in Delaware, and What to Expect from Us
in the Future, 2 J. Bus. & Tech. L. 409
(2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 25
Hamermesh, Lawrence A., The Challenge to
Delaware’s Preeminence in Corporate Law
Federal Interference May Not Pose the Greatest
Danger to the State’s Future Success, Del.
Law., Fall 2009 . . . . . . . . . . . . . . . . . . . . . . . . . .
24
Hamermesh, Lawrence A., The Policy
Foundations of Corporate Law, 106 Colum.
L. Rev. 1749, 1787 (2006) . . . . . . . . . . . . . . . . .

11

Johnsen, Dawn E., Should Ideology Matter in
Selecting Federal Judges?: Ground Rules
for the Debate, 26 Cardozo L. Rev. 463, 472
(2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

17

vii
PAGE(S)

Kahan, Marcel and Rock, Edward, Symbolic
Federalism and the Structure of Corporate
Law, 58 Vand. L. Rev. 1573, 1612
(2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

25

Kamar, Ehud, A Regulatory Competition Theory
of Indeterminacy in Corporate Law,
98 Colum. L. Rev. 1908, 1911 (1998) . . . . . . .

24

Macey, Jonathan R. & Miller, Geoffrey P.,
Toward an Interest-Group Theory of
Delaware Corporate Law, 65 Tex.
L. Rev. 469, 501-02 (1987) . . . . . . . . . . . . . . . .

23

Merritt, Deborah Jones, The Guarantee Clause
and State Autonomy: Federalism for a
Third Century, 88 Colum. L. Rev. 1, 3–10
(1988) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20, 21
Paulsen, Michel Stokes, The Constitutional
Propriety of Ideological “Litmus Tests” for
Judicial Appointments, University of Chi.
Law Rev. Online 28 (2017), available at
https://pdfs.semanticscholar.org/8404/6430
182d94a21180ff620f23c2fc285f58c3.pdf . . . .

18

Smolla, Rodney, Let Us Now Praise Famous
Judges: Exploring the Roles of Judicial
“Intuition” and “Activism” in American Law,
40 U. Rich. L. Rev. 39 (2005) . . . . . . . . . . . . . .

7

Tamanaha, Brian Z., The Several Meanings of
“Politics” in Judicial Politics Studies: Why
“Ideological Influence” Is Not “Partisanship”,
61 Emory L.J. 759, 762 (2012). . . . . . . . . . . . .

12

Lord Tennyson, Alfred, The Charge of the Light
Brigade . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

9

viii
PAGE(S)

U.S. Chamber Institute for Legal Reform
2019 Lawsuit Climate Survey: Ranking
the States, September 18, 2019, available
at https://www.instituteforlegalreform.com/
pages/2019-executive-summary?utm_source=
website&utm_medium=carousel&utm_
campaign=ilr_main_site&utm_term=
https://www.instituteforlegalreform.com/
pages/2019-executive- summary . . . . . . . . . . .

24

Veasey, E. Norman, Professionalism and
Pragmatism—The Future: A Message from
the Chief Justice of Delaware, Del. Law.,
Winter 1993 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

25

1
INTEREST OF AMICI
Amici are professors who teach and write in the
fields of American constitutional law, corporate law,
and Delaware practice and procedure. Amici have a
professional interest in this Court’s application of the
principles bearing on the constitutionality of
Delaware’s judicial selection process. The names,
titles, and affiliations of the individual amici are
listed in the Appendix. This brief is filed in their
individual capacities, not as representatives of the
institutions with which they are affiliated. 1
SUMMARY
The Third Circuit erred in its application of the
Elrod-Branti anti-patronage doctrine. The ElrodBranti doctrine is best understood as an “on-off” test.
Political patronage is presumptively invalid under
the First Amendment, unless the governmental
position in question qualifies for the “exemption”
recognized under Elrod-Branti. That exemption,
often loosely referred to as the “policymaker”
exemption, should encompass the appointment of
members of the Delaware judiciary. While judges do
not make “policy” in the same manner as members of
the executive and legislative branches, judges do
make policy within the meaning of the First
Amendment. The Third Circuit’s insistence that the
Elrod-Branti exemption is limited to jobs that require

1

This amicus brief is filed with the consent of the parties.
No counsel for any party authored this brief in whole or in part,
and no monetary contribution intended to fund the preparation
or submission of this brief was made by any party or any party’s
counsel.

2
loyalty or fidelity to the superior who made the
appointment is unsound, and should be rejected.
The question is not whether, once in office, judges are
beholden to the political authority that appointed them.
The question is whether, in considering their suitability
for office, political affiliation is a constitutionally
permissible consideration. The Delaware system
necessarily results in the exclusion of consideration
by the Delaware Governor of members of political
parties that do not make it into the top two “major”
political parties at any given moment. This exclusion,
however, cannot violate the First Amendment if
the Elrod-Branti exemption applies, because by
definition, if party affiliation is a permissible
requirement for an appointment, members of all
other parties will always be excluded. The Third
Circuit’s decision turns the entire ethos of ElrodBranti on its head. Elrod and Branti worked to break
the headlock of the spoils system on rank-and-file
government employment. The “Delaware Way” is
animated by virtues entirely aligned with Elrod and
Branti. Delaware has also sought to counteract the
spoils system, enacting for judicial selection a system
that is quintessentially anti-spoils. It is a perverse
application of Elrod-Branti to conclude that a state
seeking to renounce patronage regimes and embrace a
system well-calculated to deter the evils of patronage
is somehow in violation of the Constitution.
Delaware, as a sovereign state within the federal
system, is owed substantial deference in determining
for itself how its key constitutional offices will be
organized and selected. The deference owed to the
states in determining their methods of judicial
selection derives from the structure of our federal
system, the Tenth Amendment, and the Guarantee
Clause.

3
Delaware is entitled to act, and has acted, as a
laboratory for democratic experiment. Its experiment
has proved a triumphant success. Delaware has long
held a commanding position in American corporate
law. That preeminent position is strongly reinforced
by the national and global esteem in which the state’s
judiciary is held. In turn, that preeminence is tied to
the qualities of political balance and the high level of
judicial independence that the Delaware judiciary
enjoys.
The Constitution of the United States does not
require destruction of these cherished Delaware
traditions and institutions. Rather, the Constitution
of the United States protects them.
ARGUMENT
I. THE THIRD CIRCUIT FUNDAMENTALLY
MISCONCEIVED THE ELROD-BRANTI ANTIPATRONAGE DOCTRINE
A. Elrod-Branti is an “On-Off” Test, Not a
“Least Restrictive Means” Doctrine
The Third Circuit fundamentally misconceived the
First Amendment doctrines emanating from Elrod v.
Burns, 427 U.S. 347 (1976) and Branti v. Finkel, 445
U.S. 507 (1980). The Third Circuit superimposed
upon Elrod-Branti a “least restrictive means” analysis
of the sort commonly associated with “strict scrutiny”
or “exacting scrutiny” review. While accepting as
“vital” Delaware’s laudatory interest in ensuring
political balance in its courts, the Third Circuit held
that the State’s requirement of balance between the
two major political parties was not the least
restrictive means for achieving the State’s interest.

4
The Elrod-Branti standard, however, should not be
treated as an ends-means analysis, akin to the strict
scrutiny test applicable to content-based regulation of
speech. See Reed v. Town of Gilbert, 135 S. Ct. 2218,
2227 (2015). Rather, Elrod-Branti is better understood
as an on-off test. If the employment position at issue
is one for which political affiliation is appropriate,
then the First Amendment absolutely permits the use
of political affiliation. (This exemption, in which the
anti-patronage rule of Elrod-Branti is turned off, is
often referred to by a misnomer, labeling it the
“policymaking” exemption.)
The Third Circuit’s misapprehension stemmed
from its erroneous reading of Justice Brennan’s
three-Justice plurality opinion in Elrod. The Elrod
plurality applied what it described as “exacting
scrutiny,” requiring that the justification for the
political patronage system used for rank-and-file
positions in Chicago and Cook County in the heyday
of the first Mayor Richard Daley’s machine politics be
justified by “paramount” or “vital” government
interests and employ the “least restrictive” means to
effectuate those interests. Elrod, 427 U.S. at 363. In
assessing the justification for the entire patronage
system writ large, the Elrod plurality found that the
system failed this test. Id at 372-73. See also Rutan
v. Republican Party of Illinois, 497 U.S. 62, 69 (1990)
(Explaining that Elrod “decided that the government
interests generally asserted in support of patronage
fail to justify this burden on First Amendment rights
because patronage dismissals are not the least
restrictive means for fostering those interests.”).
The plurality in Elrod then fashioned its safety
valve—the on-off switch—exempting from its
patronage prohibition “policymaking positions.” The
Elrod plurality did not additionally require the

5
government to justify each classification of a position
as “policymaking” under the exacting scrutiny test.
Rather, it treated the distinction between policymaking
and non-policymaking as definitional, so that the
position was either “in” or “out” of the First
Amendment proscription. Elrod, 427 U.S. at 373
(plurality opinion).
Significantly, the short two-paragraph concurring
opinion in Elrod, written by Justice Stewart and
joined by Justice Blackmun, did not engage in any
form of ends-means analysis, refusing to review “the
broad contours of the patronage system.” Id. at 374
(Stewart, J., concurring in the judgment). Consistent
with the on-off approach, Justice Stewart simply
stated: “The single substantive question involved in
this case is whether a nonpolicymaking, nonconfidential
government employee can be discharged or threatened
with discharge from a job that he is satisfactorily
performing upon the sole ground of his political
beliefs. I agree with the plurality that he cannot.” Id.
at 375.
Branti followed suit. The 6-3 decision in Branti
treated the inquiry entirely as an on-off analysis,
focusing solely on whether the “position is one in
which political affiliation is a legitimate factor to
be considered.” Branti, 445 U.S. at 518. Branti
purposefully loosened the definitional inquiry,
making it clear that neither the word “policymaking”
nor the word “confidential” was a talisman. “In sum,
the ultimate inquiry is not whether the label
‘policymaker’ or ‘confidential’ fits a particular
position; rather, the question is whether the hiring
authority can demonstrate that party affiliation is an
appropriate
requirement
for
the
effective
performance of the public office involved.” Id. Thus,
Branti relaxed the definitional contours of the Elrod-

6
Branti exemption. Most critically, however, Branti
retained the essential structure of the First
Amendment standard, which is not an ends-means
inquiry, but an on-off switch.
This structural distinction matters. In mistakenly
treating Elrod-Branti as a “least restrictive means”
doctrine, the Third Circuit deemed itself empowered
to imagine other ways that Delaware might achieve
its goal of muting the influence of partisan politics on
its judiciary. This was error. The only appropriate
inquiry is definitional—whether positions on the
Delaware bench do or do not fall within the ElrodBranti exemption.
This is not to say that no judicial judgment is
required to analyze the definitional question. As with
any constitutional line, there will be close calls. It is
to say, however, that the nature of the judicial
inquiry is not normative but descriptive. The proper
question is whether Delaware Judges, Chancellors,
and Justices hold positions that fall within the
definitional boundaries of the Elrod-Branti exemption.
If they do, then it is game over, and Delaware wins.
B. Applying the Elrod-Branti Exemption to
Judicial Selection
Whether members of the Delaware judiciary may
be appointed with consideration of their political
affiliation is, to borrow from Chief Justice Marshall,
“a question deeply interesting to the United States;
but, happily, not of an intricacy proportioned to its
interest.” Marbury v. Madison, 5 U.S. (1 Cranch) 137,
176 (1803). The question, in short, is easier than it
looks.
There are two principal objections to recognizing
that appointments to the Delaware judiciary qualify

7
under the Elrod-Branti exemption. The first, and
philosophically most intriguing, is that judges cannot
be “policymakers” because they are not authorized to
“make policy” but rather must simply “follow the
law.” This objection resonates with the recurring
American debates, prominent in the nation’s political
and legal discourse, over accusations that judges
have in any particular instance usurped the proper
judicial role and become activists advancing policy
agendas. See Rodney Smolla, Let Us Now Praise
Famous Judges: Exploring the Roles of Judicial
“Intuition” and “Activism” in American Law, 40 U.
Rich. L. Rev. 39 (2005). The second objection is that
the Elrod-Branti exemption should not apply to
judges because the Elrod-Branti exemption should be
limited to positions requiring loyalty or fidelity to the
appointing superior’s political agenda.
Neither
objection is persuasive.
C. Judges Make Policy in a Manner Distinct
from the Legislative and Executive
Branches, But Judges Make Policy as the
First Amendment Knows Policy for
Purposes of the Elrod-Branti Exemption
It is fundamentally wrong to conflate the question
of whether judges qualify under the Elrod-Branti
exemption with the question of whether they “make
public policy” in the same sense as legislative or
executive branch officials. The Third Circuit erred in
failing to recognize that the term “policy” in the
American system of government has multiple shades
of meaning. Each in their own way, the legislative,
executive, and judicial branches all make “policy.”
From the founding of the Republic, state and federal
courts have been called upon to resolve profound
conflicts. These conflicts typically begin as political
disputes, but eventually are distilled into judicial

8
ones. As Alexis de Tocqueville observed in 1835,
“‘scarcely any political question arises in the United
States that is not resolved, sooner or later, into a
judicial question.’” Alexis de Tocqueville, 1 Democracy
in America 280 (1945 ed.), quoted in Sierra Club v.
Morton, 405 U.S. 727, 740, n. 16 (1972).
This Court has already largely debunked the notion
that state judges do not make policy. In Gregory v.
Ashcroft, 501 U.S. 452 (1991), the Court held that the
Age Discrimination in Employment Act of 1967, 81
Stat. 602, as amended, 29 U.S.C. §§ 621–634, did not
bar Missouri’s mandatory retirement age for state
judges. The Court in Gregory was faced with the
assertion that “judges merely resolve factual disputes
and decide questions of law; they do not make policy.”
Gregory, 501 U.S. at 465.
Adopting a “clear
statement” requirement, the Court ultimately did not
need to decide whether or not state judges fell within
the ADEA exemption. Yet the Court wisely observed
that the exception for “policymaking” was not
necessarily tethered to whether judges make “policy”
in the legislative or executive sense:
The Governor stresses judges’ policymaking
responsibilities, but it is far from plain that
the statutory exception requires that judges
actually make policy. The statute refers to
appointees “on the policymaking level,” not
to appointees “who make policy.” It may be
sufficient that the appointee is in a position
requiring the exercise of discretion concerning
issues of public importance. This certainly
describes the bench, regardless of whether
judges might be considered policymakers in
the same sense as the executive or legislature.
Id. at 466-67.

9
As this prescient passage from Gregory signals, the
resistance to the notion that judges are
“policymakers” is misplaced. To be sure, state and
federal judges are not policymakers in a brazen,
partisan, political sense. But this does not mean, for
purposes of the Elrod-Branti exemption, that judges
are outside the realm of positions for which political
affiliation is an appropriate consideration. See Hagan
v. Quinn, 867 F.3d 816, 828 (7th Cir. 2017) (“[J]udges
and hearing officers typically occupy policymaking
roles for First Amendment purposes.”)
To say that theirs is “not to reason why” is not to
say that theirs is not to reason. 2 As the Seventh
Circuit has explained, “[t]he test for whether a position
involves policymaking is ‘whether the position
authorizes, either directly or indirectly, meaningful
input into government decisionmaking on issues
where there is room for principled disagreement on
goals or their implementation.’” Kiddy-Brown v.
Blagojevich, 408 F.3d 346, 355 (7th Cir. 2005),
quoting Nekolny v. Painter, 653 F.2d 1164, 1170 (7th
Cir. 1981), cert. denied, 455 U.S. 1021 (1982).
Amici commend to this Court the opinion by Judge
Frank Easterbrook for the Seventh Circuit in
Kurowski v. Krajewski, 848 F.2d 767 (7th Cir. 1988):
A judge both makes and implements
governmental policy … In most states judges
are elected, implying that the office has a
political component. Holders of the
appointing authority may seek to ensure
that judges agree with them on important
2

See Alfred Lord Tennyson, The Charge of the Light
Brigade (“Theirs not to reason why; Theirs but to do or die.”)
(1854).

10
jurisprudential questions. The Governor of
Indiana was entitled to consider Krajewski’s
views about the role of judges—or even
simply Krajewski’s political affiliation—
when making the appointment, just as the
voters may consider these factors without
violating the first amendment when deciding
whether to retain Judge Krajewski in office.
(We put aside all debate about whether
recourse to politics in selecting judges is good
or bad; we are concerned only with the
constraints the first amendment imposes on
the way the State of Indiana prefers to
organize its government.)
Id. at 770. Similar views were articulated by Judge
Damon Keith, in an opinion for the Sixth Circuit,
stating that “[w]e agree with the holding in Kurowski
that judges are policymakers because their political
beliefs influence and dictate their decisions on
important jurisprudential matters.” Newman v.
Voinovich, 986 F.2d 159, 163 (6th Cir. 1993). The
Sixth Circuit held that with respect to appointments
to the state judiciary, “judges are policymakers
within the meaning of Elrod and Branti.” Id.
The role of state court jurists in policymaking is
particularly significant in our federal system. State
courts exert a powerful influence on the evolution of
common law. This contrasts with the more limited
role of common-law decision-making assigned to the
federal judiciary. “There is no federal general common
law.” Erie Railroad Co. v. Tompkins, 304 U.S. 64, 78
1188 (1938). In contrast, among the most important
duties of state courts is the superintendence of state
common law. For example, state courts deciding
whether to alter a state’s tort law to adopt strict
liability for particular tortious activity, or modify

11
defenses such as contributory negligence, are plainly
engaged in a form of legal policymaking, sometimes
acting alone, and sometimes in dialogue with state
legislatures. See Henry Robert Glick, Policy-Making
and State Supreme Courts: The Judiciary as an
Interest Group, 5 Law & Society Review 271 (1970)
(“Sometimes important policies are established in a
single case or policy may develop gradually in a series
of cases dealing with similar situations.”).
Many scholars have recognized the particularly
critical policymaking role the Delaware judiciary
plays in the superintendence of Delaware corporate
law. “Delaware relies heavily on judge-made law, but
the structure and operation of the Delaware courts
causes Delaware’s judicial lawmaking to differ from
that in other states. Indeed, the process by which
Delaware courts make corporate law resembles
legislation in some ways.” Jill E. Fisch, The Peculiar
Role of the Delaware Courts in the Competition for
Corporate Charters, 68 U. Cin. L. Rev. 1061, 1064
(2000). “The best-known of the principal policymakers
in Delaware are the members of the judiciary.”
Lawrence Hamermesh, How We Make Law in
Delaware, and What to Expect from Us in the Future,
2 J. Bus. & Tech. L. 409 (2007). Delaware adopts “a
preference that the details of corporate law be shaped
in a common law fashion, with courts as first
responders to tensions within the corporate law, at
least in areas that are not susceptible to simple
statutory clarification.” Lawrence Hamermesh, The
Policy Foundations of Corporate Law, 106 Colum. L.
Rev. 1749, 1787 (2006).
Many of the defining
corporate law doctrines that now dominate corporate
governance principles across the United States and
indeed the world are the product of Delaware judicial
policymaking. “The scope of the business judgment

12
rule, the analysis of transactions that implicate the
duty of loyalty, the legal standards governing
management’s response to a hostile tender offer, all
are based on legal principles articulated by the
Delaware courts.” Fisch, supra, at 1074.
“Although judges may sincerely believe that their
decisions are governed by the law, their political
views subtly color their legal decisions—either
knowingly or via cognitive biases, motivated reasoning,
or some other mechanism—according to political
scientists.” Brian Z. Tamanaha, The Several
Meanings of “Politics” in Judicial Politics Studies:
Why “Ideological Influence” Is Not “Partisanship”, 61
Emory L.J. 759, 762 (2012) citing Jeffrey A. Segal et
al., The Supreme Court in the American Legal System
33-35 (2005).
There is nothing unseemly in acknowledging that
members of the judiciary, once they assume office, are
charged with exercising independent judgment, while
at the same time accepting the realist truth that as
candidates for judicial office prospective candidates
inevitably have views formed on legal issues. “It is
virtually impossible to find a judge who does not have
preconceptions about the law.” Republican Party of
Minnesota v. White, 536 U.S. 765, 777-78 (2002). In
the words of then-Justice Rehnquist, “Since most
Justices come to this bench no earlier than their
middle years, it would be unusual if they had not by
that time formulated at least some tentative notions
that would influence them in their interpretation of
the sweeping clauses of the Constitution and their
interaction with one another. It would be not merely
unusual, but extraordinary, if they had not at least
given opinions as to constitutional issues in their
previous legal careers.” Laird v. Tatum, 409 U.S. 824,
835 (1972) (memorandum opinion).

13
Reflecting on the nature of judging, Justice
Benjamin Cardozo, a giant of American law who
exerted great influence on the evolution of the
common law as a jurist for the state of New York, and
then on constitutional law as a Justice of this
Supreme Court, observed:
There has been a certain lack of candor in
much of the discussion ... or perhaps in the
refusal to discuss it, as if judges must lose
respect and confidence by the reminder that
they are subject to human limitations. I do
not doubt the grandeur of the conception which
lifts them into the realm of pure reason,
above and beyond the sweep of perturbing
and deflecting forces. Nonetheless, if there is
anything of reality in my analysis of the
judicial process, they do not stand aloof on
these chill and distant heights; and we shall
not help the cause of truth by acting and
speaking as if they do. The great tides and
currents which engulf the rest of man do not
turn aside in their course and pass judges
by.
Benjamin N. Cardozo, The Nature of the Judicial
Process, 167–68 (1921).
D. No Fidelity to Superiors is Required Under
the Elrod-Branti Exemption
The Third Circuit’s insistence that the ElrodBranti exemption is limited to jobs that require
loyalty or fidelity to the superior who made the
appointment was flawed.
The question is not
whether, once in office, judges are beholden to the
political authority that appointed them. The question
is whether, in considering their suitability for office,

14
political affiliation is a constitutionally permissible
consideration.
The Third Circuit’s rule actually works as an
assault on judicial independence. “Judges are not
politicians, even when they come to the bench by way
of the ballot.” Williams-Yulee v. Florida Bar, 135 S.
Ct. 1656, 1662 (2015). The Third Circuit adopted a
non sequitur, by presuming that because judges, once
assuming office, have obligations of impartiality and
independence, they cannot be selected in a manner
sensitive to party affiliation. Nothing in Elrod or
Branti requires this result:
The ... approach is unsatisfactory because it
assumes that Branti and its progenitor,
Elrod ... permit an appointing officer to
consider the appointee’s political views only
when the appointee carries out the
appointing official’s own “policy”. If this is so
then, for example, the governor could not
consider a would-be judge’s politics when
deciding whom to appoint (because the judge
is independent of the governor once in office),
and the President could not consider the
views of a prospective appointee to the
Federal Trade Commission when making
that selection. Neither Elrod nor Branti makes
anything turn on the relation between the
job in question and the implementation of
the appointing officer’s policies.
Kurowski, 848 F.2d at 770.
“A State may assure its people that judges will
apply the law without fear or favor.” Williams-Yulee,
135 S. Ct. at 1662. Once judges and justices assume
office, they are no longer properly identified as
minions of the authority responsible for their

15
appointment. As the Chief Justice has observed: “We
do not have Obama judges or Trump judges, Bush
judges or Clinton judges. What we have is an
extraordinary group of dedicated judges doing their
level best to do equal right to those appearing before
them. That independent judiciary is something we
should all be thankful for.” 3 There is, in short, a
“twist” to the Elrod-Branti analysis unique to the
judicial role. As Sixth Circuit Judge Nathaniel Jones,
concurring in Newman, elegantly explained:
Judicial appointments present an interesting
twist on that analysis. For example, while a
judge may be a “policymaker” in a broad
sense, a judge is not a “policymaker” for the
appointing governor. Rather, the judiciary is
an independent arm of the government,
unconnected by oath or duty to the
governor’s office or political party. Once
appointed, a judge does not and should not
answer to a governor’s directives or opinions.
Therefore, the link between an appointee
judge and the appointing governor is
fundamentally different from the link
between a governor and other gubernatorial
appointees who are appointed to fulfill the
political or policy objectives of a governor.
Newman, 986 F.2d at 164 (Jones, J., concurring).

3

Robert Barnes, Rebuking Trump’s criticism of ‘Obama
judge,’ Chief Justice Roberts defends judiciary as ‘independent’,
The Washington Post, November 21, 2018, available at:
https://www.washingtonpost.com/politics/rebuking-trumps-criticismof-obama-judge-chief-justice-roberts-defends-judiciary-as-inde
pendent/2018/11/21/6383c7b2-edb7-11e8-96d4-0d23f2aaad09_
story.html?noredirect=on

16
E. Once the Propriety of the Exemption is
Recognized, “Discrimination” Against an
Excluded Party Cannot Violate the First
Amendment
The Delaware system necessarily bars the
Delaware Governor from considering members of
political parties that do not make it into the top two
“major” political parties at any given moment. The
identities of the current two “major” parties in
Delaware, Democratic and Republican, are not
perpetual. The pertinent provisions of the Delaware
Constitution identify no party by name. To achieve
its goal of balance, Delaware simply limits judicial
selection to the top two “major” parties, whatever
they may be at any point in time. There is nothing to
preclude the Delaware electorate from lifting up a
new party as one of the top two “major” parties in its
politics, the “Tea Party” or “Green Party,” or any
other, in which case that party would assume a place
as one of the two major parties.
The Delaware system thus by definition “excludes”
parties that do not make the top-two cut. Indeed, to
maintain the balance contemplated by the Delaware
Constitution, the Delaware method automatically
excludes every party except the one major party
whose turn is up in the rotation. But this truism
does not violate the First Amendment if judges
qualify under the Elrod-Branti exemption. For by
definition all positions qualifying under the ElrodBranti exemption exclude members of all parties
other than the party favored by the appointing
authority. The upshot of the Delaware system is that
Delaware Governors are regularly required to
appoint to the Delaware bench candidates who are
affiliated with a party other than the Governor’s own
party.

17
To punctuate this point, consider the federal model.
Presidents of the United States have throughout
history used party affiliation and ideology as litmus
tests for nominations to the federal judiciary, from
the Supreme Court on down. See Dawn E. Johnsen,
Should Ideology Matter in Selecting Federal Judges?:
Ground Rules for the Debate, 26 Cardozo L. Rev. 463,
472 (2005). Only the most naïve would believe that
politics and ideology do not play a central role in
nominations to the federal bench:
Presidents, senators, and interest groups
alike realize that the judges themselves are
political. Candidates for the federal bench
receive their nominations precisely because
through their political work or interests they
came to the attention of some politician,
most likely a U.S. senator or a member of the
president’s staff.
Lee Epstein & Jeffrey A. Segal, Advice and Consent:
The Politics of Judicial Appointments 3 (2005).
This long historical practice surely does not violate
the First Amendment. Yet it is, by its nature,
inherently exclusionary. The federal model plainly
countenances “discrimination” on the basis of political
affiliation and ideological viewpoint. A conservative
Republican President who makes it clear he or she is
interested in filling judicial vacancies only with
Republicans simpatico to the President’s conservative
views necessarily excludes all non-Republicans. A
liberal Democratic President who makes it clear he or
she is interested in filling judicial vacancies only with
Democrats simpatico to the President’s liberal views
necessarily excludes all non-Democrats. Senators,
exercising their concomitant powers of consent, may
also be unabashedly political in the exercise of their

18
constitutional prerogatives. See Michel Stokes
Paulsen, The Constitutional Propriety of Ideological
“Litmus Tests” for Judicial Appointments, University
of Chi. Law Rev. Online 28 (2017) 4 (“Isn’t it obvious?
The Constitution prescribes an explicitly political
process for the nomination, confirmation, and
appointment of US Supreme Court justices and lower
federal court judges. The President has the exclusive
power of nomination and may exercise that power on
the basis of any criteria he or she sees fit. The Senate
has the power to provide its ‘advice’ and—if it
wishes—its ‘consent’ to such a nomination.”).
The Third Circuit’s decision, distilled to its core,
rests entirely on the perceived constitutional
infirmity of a Delaware system that excludes, as it
must, members of any party other than the party
taking its turn in the rotation. If the Elrod-Branti
exemption applies, however, this objection is entirely
illogical. For by definition, in any system in which
reference to political affiliation is deemed permissible
for a pending appointment, any political party other
than the chosen one will be excluded.
F. Delaware Has Decided that the Spoils Do
Not Belong to the Victor
The Third Circuit’s decision turns the entire ethos
of Elrod-Branti on its head. Elrod and Branti worked
to break the headlock of the spoils system on rankand-file government employment. The “Delaware
Way” is animated by virtues entirely aligned with
Elrod and Branti. Delaware has sought to counteract
the spoils system when it comes to judicial selection,
adopting a system that is quintessentially anti-spoils.
4

https://pdfs.semanticscholar.org/8404/6430182d94a2118
0ff620f23c2fc285f58c3.pdf

19
It is a perverse application of Elrod-Branti to
conclude that a state seeking to renounce patronage
regimes and embrace a system well-calculated to
deter the evils of patronage is somehow in violation of
the Constitution. Elrod-Branti decided that to the
victor do not belong all the spoils. Delaware has
decided the same thing. It should not be penalized
for it.
II. THE THIRD CIRCUIT’S DECISION UNDERMINES THE SOVEREIGNTY OF STATES IN
MATTERS OF JUDICIAL SELECTION
A. Judicial Selection Regimes Resides at the
Core of State Sovereignty
“As every schoolchild learns, our Constitution
establishes a system of dual sovereignty between the
States and the Federal Government.” Gregory, 501
U.S. at 457. “The Constitution, in all its provisions,
looks to an indestructible Union, composed of
indestructible States.” Texas v. White, 7 Wall. 700,
725, 19 L.Ed. 227 (1869), quoting Lane County v.
Oregon, 7 Wall. 71, 76, 19 L.Ed. 101 (1869).
The system of dual sovereignty divides power, and
in that division preserves a liberty as ancient as
democracy itself. “The liberty of the ancients is the
liberty of citizens to govern themselves through their
own political institutions.” Charles Fried, Federalism—
Why Should We Care?, 6 Harv. J.L. & Pub. Policy 1, 2
(1982). “This federalist structure of joint sovereigns
preserves to the people numerous advantages. It
assures a decentralized government that will be more
sensitive to the diverse needs of a heterogeneous
society; it increases opportunity for citizen
involvement in democratic processes; it allows for
more innovation and experimentation in government;
and it makes government more responsive by putting

20
the States in competition for a mobile citizenry.”
Gregory, 501 U.S. at 458, citing Michael McConnell,
Federalism: Evaluating the Founders’ Design, 54 U.
Chi. L. Rev. 1484, 1491-1511 (1987); Deborah Jones
Merritt, The Guarantee Clause and State Autonomy:
Federalism for a Third Century, 88 Colum. L. Rev. 1,
3–10 (1988).
Delaware has a powerful interest as a sovereign “in
establishing its own form of government.” Sugarman
v. Dougall, 413 U.S. 634, 642 (1973). “In its internal
administration, the State (so far as concerns the
Federal Government) has entire freedom of choice as
to the creation of an office for purely state purposes,
and of the terms upon which it shall be held by the
person filling the office.” Wilson v. North Carolina,
169 U.S. 586, 594 (1898). “How power shall be
distributed by a state among its governmental organs
is commonly, if not always, a question for the state
itself.” Highland Farms Dairy v. Agnew, 300 U.S.
608, 612 (1937).
Balancing judicial selection by alternating between
the two major political parties cannot offend the First
Amendment, as already demonstrated, if members of
the judiciary fall outside the Elrod-Branti doctrine.
The propriety of applying the Elrod-Branti exemption
is reinforced by Delaware’s Tenth Amendment and
Guarantee Clause rights as a sovereign.
Delaware’s sovereign right under the Tenth
Amendment to experiment in advancing the art of
governance is reinforced by the Constitution’s
Guarantee Clause, Article IV, § 4. The Guarantee
Clause declares that the “United States shall
guarantee to every State in this Union a Republican
Form of Government.” The Guarantee Clause is a
two-way street. It plainly operates as a restraint

21
upon the states; yet it also operates as an
empowerment to the states, a recognition of the
states’ sovereign autonomy and dignity. “[T]he words
of the guarantee clause suggest a limit on the power
of the federal government to infringe state
autonomy.”
Merritt, supra, at 3. At stake is
Delaware’s defining identity, cutting to the core of its
integrity and dignity as a sovereign. See Gregory, 501
U.S. at 460 (“The present case concerns a state
constitutional provision through which the people of
Missouri establish a qualification for those who sit as
their judges. This provision goes beyond an area
traditionally regulated by the States; it is a decision
of the most fundamental sort for a sovereign entity.
Through the structure of its government, and the
character of those who exercise government
authority, a State defines itself as a sovereign.”)
B. Delaware is Entitled to Act as a Laboratory
for Democratic Experiment
Justice Brandeis famously expounded the virtues of
allowing states to serve as laboratories of experiment,
equipped to “try novel social and economic
experiments without risk to the rest of the country.”
New State Ice Co. v. Liebmann, 285 U.S. 262, 311
(1932) (Brandeis, J., dissenting). Delaware has
engaged in such an experiment, deliberately
fashioning a judiciary that is politically balanced. It
has worked. The Delaware judiciary has garnered
widespread respect in national and global legal and
economic markets. In the words of Professor Stephen
Bainbridge:
The Delaware judiciary has achieved a welldeserved “reputation as elite, national
arbiters of corporate law.” They therefore
receive a level of media attention to which

22
few other state court judges — especially
trial court judges — can aspire. They
routinely get invited to headline high-profile
academic and professional conferences to
which other state court judges — especially
at the trial court level — rarely receive.
Indeed, some argue that the Delaware courts
have achieved “a reputation that is
unmatched by any other state or federal
court.”
Stephen M. Bainbridge, “Interest Group Analysis of
Delaware Law: The Corporate Opportunity Doctrine
as Case Study,” in Can Delaware be Dethroned?
Evaluating Delaware’s Dominance of Corporate Law
120 (Cambridge University Press 2018).
Federal courts should tread with extreme caution
before presuming to encroach on Delaware’s right to
proceed with its experiment.
In the pursuit of its experiment, Delaware has
sought to de-politicize its judiciary by rotating
appointments among the top two parties.
This
structure enhances stability and discourages
attempts to game the system. As two scholars of
“interest-group theory have explained:
We reject the contention that Delaware
judges are subject to the same interest-group
pressures as are legislators. Delaware judges
are appointed by the Governor with the
consent of the state senate and serve for
terms of twelve years. During their tenure
they can be removed only for cause such as
willful misconduct, persistent failure to
perform duties, or commission of an offense
involving moral turpitude. Removal is by a
special judicial court rather than by the

23
legislature, as it is for federal judges.
Delaware even goes so far as to impose rules
splitting its judicial appointments among
political parties. Interest-group theory would
predict that these safeguards make the
Delaware judiciary less responsive to
political pressures than the legislature
because it has less to lose or gain by
offending or pleasing different groups.
Jonathan R. Macey & Geoffrey P. Miller, Toward an
Interest-Group Theory of Delaware Corporate Law, 65
Tex. L. Rev. 469, 501-02 (1987).
There is nothing constitutionally untoward in
Delaware’s preference for the stability of a balanced
two-party rotation system over a regime of
unrestrained factionalism.
The pursuit of such
stability was an animating value of the founders of
the Republic, and states are free to embrace it as
well. Storer v. Brown, 415 U.S. 724, 736, (1974) (“A
State need not take the course California has, but
California apparently believes with the Founding
Fathers that splintered parties and unrestrained
factionalism may do significant damage to the fabric
of government.”) citing The Federalist, No. 10
(Madison). See also Rutan, 497 U.S. at 197 (Scalia, J.,
dissenting) (Observing, “Not only is a two-party
system more likely to emerge, but the differences
between those parties are more likely to be
moderated,” and adding, “The stabilizing effects of
such a system are obvious.”)
C. The Delaware Experiment Has Been a
Triumphant Success
Delaware’s experiment has been a triumphant
success. Most visibly, Delaware has long held a
leading position in American corporate law.

24
Lawrence A. Hamermesh, The Challenge to
Delaware’s Preeminence in Corporate Law Federal
Interference May Not Pose the Greatest Danger to the
State’s Future Success, Del. Law., Fall 2009, at 8 (“We
need not dwell long on our State’s well-known success
in providing a legal home for corporations and other
business entities. More than 850,000 entities,
including over half of all U.S. publicly traded
companies and over 60 percent of the Fortune 500
companies, are organized under Delaware law.”). See
also U.S. Chamber Institute for Legal Reform 2019
Lawsuit Climate Survey: Ranking the States,
September 18, 2019 (Ranking Delaware judiciary #1
in U.S. in “Trial Judges Impartiality,” “Trial Judges
Competence,” and “Quality of Appellate Review.”). 5
Delaware’s commanding position as the premier
American forum for the adjudication of corporate law
disputes is inextricably tied to the widespread
acknowledgement of the high competence of its
judiciary. See Ehud Kamar, A Regulatory Competition
Theory of Indeterminacy in Corporate Law, 98 Colum.
L. Rev. 1908, 1911 (1998) (“Delaware courts have
earned a unique reputation for quality adjudication.
This reputation is particularly meaningful since the
quality of courts can be ascertained only through the
use of their services.”); Bernard S. Black, Is Corporate
Law Trivial?: A Political and Economic Analysis, 84
Nw. U. L. Rev. 542, 589 (1990) (“My explanation
depends primarily on Delaware’s expert judges.”);
Fisch, supra, at 1094 (“Consider next the proficiency
of Delaware courts, which commentators widely
5

https://www.instituteforlegalreform.com/pages/2019-exe
cutive-summary?utm_source=website&utm_medium=carousel&
utm_campaign=ilr_main_site&utm_term=https://www.institutef
orlegalreform.com/pages/2019-executive-summary.

25
acknowledge to be a competitive advantage.”); E.
Norman Veasey, Professionalism and Pragmatism—
The Future: A Message from the Chief Justice of
Delaware, Del. Law., Winter 1993, at 13 (Delaware’s
Chief Justice emphasizing the connections between
Delaware’s national prominence and its consistent
capacity to attract quality judges).
In turn, that preeminence is tied to the qualities of
political balance and the high level of judicial
independence that the Delaware judiciary enjoys.
Fisch, supra, at 1094 (“Finally, the Delaware
Constitution mandates balance between the two
major political parties in appointment of Delaware
judges. These factors contribute to insulating
Delaware judges relative to legislators from political
influence.”); Hamermesh, How We Make Law in
Delaware, supra, at 409 (“These Delaware judges are
particularly interesting because of their appointive,
nonpolitical, nonpartisan character.”); Marcel Kahan
and Edward Rock, Symbolic Federalism and the
Structure of Corporate Law, 58 Vand. L. Rev. 1573,
1612 (2005) (“Indeed, since Delaware’s judiciary is
less politicized and has greater claim to expertise in
corporate law than the federal judiciary, its rulings
enjoy greater legitimacy than would corporate rulings
of federal judges”).

26
CONCLUSION
In arguing The Dartmouth College case, Trustees of
Dartmouth College v. Woodward, 17 U.S. 518, 688
(1819), Daniel Webster declaimed, “It is sir, as I have
said, a small college. And yet there are those who
love it!” 6 Delaware is but a small state. And yet
there are those who love it, for its traditions of
bipartisan civility, and its governing institutions,
including a highly qualified and independent
judiciary deliberately fashioned to diminish partisan
influence. The Constitution of the United States does
not require destruction of those Delaware traditions
and institutions. To the contrary, the Constitution of
the United States protects them.
Respectfully submitted,
Rodney A. Smolla
4601 Concord Pike
Wilmington, DE 19803
(302) 477-2278
Counsel of Record
for Amici Curiae

6

https://www.americanheritage.com/it-small-college-yetthere-are-those-who-love-it

1a
APPENDIX 7
List of Amici Curiae
Stephen M. Bainbridge, William D. Warren
Distinguished Professor of Law, UCLA School of Law
William C. Banks, College of Law Board of Advisors
Distinguished Professor, Professor of Law and
Professor of Public Administration and International
Affairs Emeritus, Syracuse University College of Law
Ashutosh Bhagwat, Martin Luther King, Jr.
Professor of Law and Boochever and Bird Endowed
Chair for the Study and Teaching of Freedom and
Equality, University of California, Davis School of
Law
Clay Calvert, Professor and Brechner Eminent
Scholar in Mass Communication at the University of
Florida, where he also directs the Marion B. Brechner
First Amendment Project.
Jill E. Fisch, Saul A. Fox Distinguished Professor of
Business Law University of Pennsylvania Law School
Alan Garfield, Distinguished Professor of Law,
Widener University Delaware Law School
Bruce Grohsgal, Helen S. Balick Professor in
Business Bankruptcy Law, Widener University
Delaware Law School
Lawrence Hamermesh, Emeritus Professor of Law,
Widener University Delaware Law School, and
Executive Director, Institute for Law and Economics,
University of Pennsylvania Law School.
7

The Amici file in their individual capacities, not as
representatives of the institutions with which they are
affiliated.

2a
David R. Hodas, Distinguished Emeritus Professor
of Law, Widener University Delaware Law School
Justice William C. Koch, Jr. (Ret.), President and
Dean of the Nashville School of Law
Michael S. McGinniss, Dean and Associate
Professor of Law, University of North Dakota School
of Law
Helen Norton, Rothgerber Chair in Constitutional
Law, University of Colorado School of Law
Paul L. Regan, Associate Professor of Law, Widener
University Delaware Law School
Rodney A. Smolla, Dean and Professor of Law,
Widener University Delaware Law School
Nat Stern, John W. & Ashley E. Frost Professor,
Florida State University College of Law
Mark Strasser, Trustees Professor of Law, Capital
University Law School
Alexander Tsesis, Raymond & Mary Simon Chair in
Constitutional Law and Professor of Law, Loyola
University School of Law, Chicago, General Editor,
Cambridge Studies on Civil Rights and Civil
Liberties
Sonja R. West, Brumby Distinguished Professor of
First Amendment Law, University of Georgia School
of Law
Timothy Zick, John Marshall Professor of
Government & Citizenship. William & Mary Law
School

